No. _______

In The

Supreme Court of the United States
BRIAN HAMPTON CLARK,
Petitioner,

v.
COMMONWEALTH OF VIRGINIA,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Virginia
PETITION FOR WRIT OF CERTIORARI

HENRY W. MCLAUGHLIN (VSB NO. 07105)
THE LAW OFFICE OF HENRY MCLAUGHLIN, P.C.
707 EAST MAIN STREET, SUITE 1050
RICHMOND, VIRGINIA 23219
Tel. (804) 205-9020
Facsimile (804) 205-9029
Email: henry@mclaughlinvalaw.com
Counsel of Record for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

i
QUESTIONS PRESENTED
The petitioner, Brian Hampton Clark (“Brian
Clark”) seeks reversal of a conviction of contempt of
court entered by the Honorable David V. Williams,
chief judge of the Circuit Court of Patrick County,
Virginia (“Judge Williams”) on grounds Judge
Williams erred in denying Brian Clark’s motion for
recusal of Judge Williams in this case. Brian Clark
contends that Judge Williams’ denial of such recusal
motion denied Brian Clark his due process rights
under the Fifth and Fourteenth Amendments to the
United States Constitution.
The questions for consideration by this Court are
as follows:
1. Whether the fact that the contempt charge in
this case was openly brought in response to
Brian Clark’s petition for a writ of prohibition in
the Virginia Supreme Court joining as
respondent one of the judges of the Circuit Court
of Patrick County, Virginia (“the trial court”)
required that the Honorable David V. Williams
(“Judge Williams”), chief judge of the trial court,
to comply with Brian Clark’s federal due process
rights, to grant Brian Clark’s motion that Judge
Williams recuse himself?
2. Whether the totality of the circumstances
indicated that an average judge in the position of
Judge Williams would have a “potential for bias”
so as to require his recusal to comply with Brian
Clark’s federal due process rights, where (a)
Judge Williams had previously issued a written

ii
opinion stating that Brian Clark had “paranoid”
views; (b) along with other judges of the trial
court, Judge Williams had recused himself from
Brian Clark’s divorce case; (c) Judge Williams
would not have issued the contempt charge
except that Judge Clark suggested he do so in
response to Brian Clark filing an action in a
higher court joining Judge Clark as respondent;
(d) the outcome of the contempt charge in this
case pending when Brian Clark moved for recusal
at that time carried a manifest potential to affect
the petition for prohibition (solely on state law
grounds) then pending in the Virginia Supreme
Court, and a case Brian Clark filed in federal
court also challenging (solely on federal law
grounds) Judge Clark’s order, issued without
notice or opportunity for hearing conditioning
Brian Clark’s access to the clerk’s office of the
trial court on conditions not imposed on the
general public; and (f) Judge Williams, in
discussing linkage between the case Brian Clark
filed in the Virginia Supreme Court and the
contempt charge stated, “Well, the matter raised
was your client didn’t have a chance to have a
hearing, which is want your client wanted.”?

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
TABLE OF AUTHORITIES ....................................... v
OPINIONS AND ORDERS BELOW .......................... 1
JURISDICTION .......................................................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ......................................... 2
STATEMENT OF THE CASE .................................... 2
REASONS FOR GRANTING THE PETITION ......... 9
I. THE PROSECUTION

OF

BRIAN CLARK

WAS

MANIFESTLY INTENDED TO PUNISH HIM FOR
BRINGING AN ACTION IN A HIGHER COURT AND
IN FEDERAL COURT CHALLENGING AN ORDER
ENTERED WITHOUT ANY NOTICE TO HIM OR
OPPORTUNITY TO BE HEARD BY THE TRIAL
COURT ON THE PRETEXT THAT THE CONTEMPT
CASE WOULD PROVIDE HIM THE NOTICE AND
HEARING HE COMPLAINED TO A HIGHER COURT
OF HAVING BEEN DENIED.

II. BECAUSE

...................................... 9

OF THE COMBINATION

WHAT IS SET FORTH IN

(I)

ABOVE;

OF

(B)

(A)

PRIOR

RECUSAL OF ALL OF THE JUDGES OF THE TRIAL
COURT IN ANOTHER CASE ON LESSER GROUNDS;

(C)

JUDGE

WILLIAMS’ PRIOR JUDICIAL
BRIAN CLARK HELD
“PARANOID” VIEWS; AND (D) THE LONG PASSAGE
STATEMENT

THAT

iv
OF TIME SINCE THE EMAILS AT ISSUE IN THIS
CASE AND THE FILING OF THE CHARGE,

WILLIAMS

WAS REQUIRED BY

BRIAN

JUDGE
CLARK’S

FEDERAL DUE PROCESS RIGHTS TO GRANT HIS
RECUSAL MOTION .................................................. 12

III. BRIAN CLARK

PROPERLY COMPLIED WITH

APPLICABLE RULES TO PRESERVE HIS FEDERAL
DUE

PROCESS

CONSTITUTIONAL

RIGHTS

AT

EVERY STAGE OF THE PROCEEDINGS OF THIS
CASE IN VIRGINIA COURTS.

................................... 19

CONCLUSION .......................................................... 24
APPENDIX:
APPENDIX A: January 28, 2020 Order of the
Virginia Supreme Court Refusing Appeal ............. A1
APPENDIX B: July 2, 2019 Order of the Court of
Appeals of Virginia Denying Appeal ...................... A2
APPENDIX C: February 25, 2019 Order of Court of
Appeals of Virginia Denying Appeal ....................... A3
APPENDIX D: March 20, 2018 Conviction Order of
Circuit Court of Patrick County, Virginia............. A10
APPENDIX E: March 21, 2020 Order of Virginia
Supreme Court Denying Petition to Rehear ........ A12
APPENDIX F: U.S. CONST. amend. V and U.S.
CONST. amend. XIX ................................................ A13

v
TABLE OF AUTHORITIES
CASES
United Mine Workers of America v. Bagwell, 512
U.S. 821 (1994) .......................................................... 15
Fisher v. Pace, 336 U.S. 155 (1949) ........................ 15
Pounders v. Watson, 521 U.S. 982 (1997)................. 15
Cooke v. United States, 267 U.S. 517
(1925) ............................................................. 15, 19, 22
Mayberry v. Pennsylvania, 400 U.S. 455
(1971) ............................................................. 16, 19, 22
Taylor v. Hayes, 418 U.S. 488 (1974) ........... 16, 19, 22
Caperton v. A. T. Massey Coal Co., 556 U.S. 868
(2009) ............................................................ 17, 19, 22
Clark v. Coleman, et al; U.S. District Court,
Western District of Virginia;
Case No. 4: 17-cv-00045-MFU-RSB ................. 4, 9, 18
CONSTITUTIONAL AND STATUTORY
PROVISIONS
U.S. CONST. amend. V. .................................... 2, 12, 19
U.S. CONST. amend. XIV, § 1 .......................... 2, 12, 19

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Brian Hampton Clark (“Brian Clark”)
submits this petition for a writ of certiorari to review
the order of the Virginia Supreme Court refusing his
appeal from the refusal by the Court of Appeals of
Virginia to grant him an appeal from his conviction
for contempt of court – with a jail sentence – by the
Circuit Court of Patrick County, Virginia; and the
order by the Virginia Supreme Court denying his
petition to rehear that court’s refusal of his appeal.
OPINIONS AND ORDERS BELOW
Included as exhibits to this petition are (a) the
order for conviction of Brian Clark by the Circuit
Court of Patrick County, Virginia; (b) an order by
one of the judges of the Court of Appeals of Virginia
denying Brian Clark’s appeal; (c) a further order by
the Court of Appeals of Virginia denying Brian
Clark’s petition to rehear denial of his appeal; (d)
order by the Virginia Supreme Court denying Brian
Clark’s appeal to that court; and (e) order by the
Virginia Supreme Court denying Brian Clark’s
petition to rehear denial of appeal. None of the
foregoing specifically addressed Brian Clark’s
contention that denial of his recusal motion violated
his federal due process rights because those rights
required recusal where an objection view would
indicate that an average judge in Judge Williams’
positon would likely have an unconstitutional
“potential for bias.” Of the above, only Appendix C
contained any opinion. Appendix C addressed Brian
Clark’s recusal motion only as to Virginia State law,
but did not address Brian Clark’s assertion of his

2
federal due process rights as grounds for recusal of
Judge Williams.
JURISDICTION
The Virginia Supreme Court entered an order on
January 28, 2020 denying Brian Clark’s appeal and
entered an order denying his petition to rehear on
March 21, 2020.
This Court’s jurisdiction to
consider this petition for certiorari rests on 28 U.S.C.
§ 1257 (a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fifth Amendment to the United States
Constitution and the Fourteenth Amendment to the
United States Constitution. (Appendix F)
STATEMENT OF THE CASE
Undisputed facts in this case are unprecedented
in this country.
Prior to Brian Clark’s conviction of contempt of
court in this case, he had never been convicted of any
felony, any misdemeanor involving moral turpitude,
or anything involving violence.1 He had been
A certified copy of the entire record of the case in which Brian
Clark filed a petition for a writ of certiorari in the Virginia
Supreme Court (“the prohibition case”) was made a part of the
record in the hearing on motions, including recusal motions,
heard prior to evidence at the trail of this case in the trial court
on March 20, 2018 at p. 7 of the transcript of the trial in the
trial court. (The entire record of the petition for writ of
prohibition case, as thus entered into the record of this case, is

1

3
acquitted by the Honorable Willard Greer (“Judge
Greer”), a different judge of the Circuit Court of
Patrick County, Virginia (“the trial court”), of an
earlier charge of contempt of court.2
Although Brian Clark had a clean criminal
record, he was considered in Patrick County,
Virginia (“Patrick County”) to be a malcontent. In a
domestic case involving child visitation, Judge
Williams had referred to him as having “paranoid”
beliefs.3 All of the judges of the 21st Judicial Circuit
of Virginia had recused themselves from his divorce
case.4 While riding as a passenger in a car driven by
his sister, he had been stopped in Patrick County by
a deputy sheriff. After Brian Clark filed a 42 U.S.C.
Section 1983 lawsuit (“Brian Clark’s federal
lawsuit”) that included challenge of that traffic stop,
a jury rendered a verdict in favor of the deputy
sheriff. The U.S. District Court of the Western
District of Virginia granted a motion filed under
Rule 58 of the Federal Rules of Civil Procedure; set
referred to herein after as “Rec., pet. for proh.”) As introduced
into the record in this case, Brian Clark’s petition for a writ of
certiorari at pp. 43-46 contained Brian Clark’s declaration
under penalty of perjury that , except for the original of certain
emails, those facts were true and correct to the best of his
knowledge, information and belief. Therefore, he swore to the
fact set forth at pp. 10-11 that he had never been convicted of
any felony, misdemeanor involving moral turpitude, or
anything involving violence or threat of physical violence. (For
purposes of the record, the petition for a writ of prohibition
filed by Brian Clark in the Virginia Supreme Court and made a
part of the record in this case as stated herein, is referred to
hereafter as “the pet. for proh”)
2 Pet. for proh., p. 6 ¶ 10
3 Pet. for proh. Exh. J, p. 2 of letter opinion by Judge Williams.
4
P. 1, Brian Clark’s Recusal Motion, filed September 12, 2017

4
aside the jury verdict; and entered a judgment in
favor of Brian Clark against the deputy sheriff for
nominal damages and attorney’s fees. (Clark v.
Coleman, et al; U.S. District Court, Western District
of Virginia; Case No. 4: 17-cv-00045-MFU-RSB,
Order entered on March 24, 2020 Dkt No. 156)5
One of the judges of the Circuit Court of Patrick
County, Virginia, the Honorable Martin F. Clark Jr.
(“Judge Clark”), (no kin to Brian Clark) without any
opportunity for Brian Clark to be heard, or any prior
notice at all, had issued an oral order banning Brian
Clark from the clerk’s office (“the clerk’s office”) of
the trial court6. After Brian Clark retained his
present legal counsel, Judge Clark modified his
order to allow Brian Clark access to the clerk’s office
if accompanied by his lawyer.7 In response to
written objection by Brian Clark’s legal counsel and
after Brian Clark was acquitted of contempt of court
by Judge Greer, Judge Clark modified his order a
second time to allow Brian Clark to enter the clerk’s
office on 24 hour notice,8 but would not allow him
access to the clerk’s office on the same terms
available to the general public. Id.
On grounds such modified order put him in a
status of second class citizenship, Brian Clark filed a
petition for a writ of prohibition in the Virginia
Supreme Court, joining Judge Clark as respondent9,
and filed his federal lawsuit, joining the Patrick
This case is herein after referred to as “Clark v. Coleman et
al.”
6 Pet. for proh., pp. 4-5, ¶,¶ 1-2, 8
7 Pet. for proh. P 5, ¶ 3
8 Pet. for proh. pp 5, n. 3, 7, ¶ 11, Exh. J
9 Pet. for proh.
5

5
County sheriff as one of the defendants, seeking in
one of the counts of that case a declaratory judgment
that the sheriff could not enforce Judge Clark’s order
limiting Brian Clark’s access to the clerk’s office to
less than that available to the general public – on
grounds, inter alia, that such order violated Brian
Clark’s federal rights of free speech, due process, and
equal treatment under the law.10
As respondent in the case brought by Brian
Clark seeking a writ of prohibition, Judge Clark
wrote Judge Williams, enclosing emails over a year
old, which stated they were from Brian Clark and
which spoke contemptuously about local public
officials, including judges.11 Judge Clark wrote
Judge Williams suggesting that if Judge Williams
thought well of it, he could charge Brian Clark with
contempt of court on the basis of such emails and
“give him [Brian Clark] the due process he demands
from the Virginia Supreme Court.” Id. In response,
Judge Williams issued a contempt of court charge in
the trial court against Brian Clark based on the
emails attached to Judge Clark’s letter to him.12
Judge Clark, by counsel, then filed a responsive
pleading in the Virginia Supreme Court attaching
his letter to Judge Williams, the emails enclosed
with that letter, and a request that the Virginia
Supreme Court stay Brian Clark’s case seeking a
Clark v. Coleman et als. (Dkt No. 1)
Rec. of Proh. case, Letter from Judge Clark to Judge
Williams, attached as Exh. to Judge Clark’s answer to Pet. for
proh.
12 July 25, 2017 charge of contempt of court in the trial court in
this case.
10
11

6
writ of prohibition pending the outcome of the
contempt charge issued by Judge Williams against
Brian Clark.13
While the petition for a writ of prohibition and
Brian Clark’s federal lawsuit were pending, Brian
Clark filed defense motions in this case which
included a motion seeking recusal of Judge Williams
and all of the judges of the 21st Judicial Circuit.14 In
that motion, Brian Clark argued that any objective
observer would be likely to conclude that any
acquittal of him as to the pending contempt charge
could be construed in favor of his petition for a writ
of prohibition in the Virginia Supreme Court and in
favor of his federal lawsuit as to that count seeking a
declaratory judgment that the sheriff could not
enforce Judge Clark’s order restricting Brian Clark’s
access to the clerk’s office to less than that allowed
the general public. Id. Brian Clark’s motion for
recusal cited case law by this Court to the effect that
the issue was not whether a judge was in fact biased
against ta defendant, but whether the average judge
in such judge’s position would have an
unconstitutional “potential for bias.” Id.
Brian
Clark’s motion for recusal also cited case law of this
Court to the effect that there were increased grounds
for recusal in contempt of court cases with the
passage of time. Id.
On September 15, 2017, Judge Williams heard
the recusal motion. (Tr. September 15, 2020 hearing
in trial court) When Brian Clark’s counsel pointed
Rec. of Proh. case, Answer by Judge Clark to pet. for proh.
Pp. 1-5, Motion 1 (Motion for Recusal) filed in trial court on
September 12, 2017.
13
14

7
out that Judge Clark had suggested a charge of
contempt of court in response to Brian Clark’s
petition in the state’s highest court joining Judge
Clark as respondent, Judge Williams stated,
“Well, the matter raised was your client
didn’t have a change to have a hearing,
which is what your client wanted.” 15
Counsel for Brian Clark contended that such
statement at such hearing by Judge Williams was
additional grounds for Judge Williams to recuse
himself.16 Brian Clark’s counsel argued that “the
law says if an independent observer concluded that
there is a potential for biased [sic] then there should
be recusal.”17
Judge Williams stated that a judge must avoid
impropriety or the appearance of impropriety18 and
further stated he could be impartial19 and denied the
motion for recusal.20 Brian Clark renewed his
recusal motion after being served with the contempt
charge on March 20, 2019, with his renewed motion
adding as grounds Judge Williams statement on
September 15, 2017 that, “Well, the matter raised
was your client didn’t have a change to have a

Trans. September 15, 2017 hearing, p. 7
“Well, Your Honor, I submit that the state … that that
statement is added grounds for the motion for recusal. Id.
17 Id, p. 18.
18 Id p. 21
19 Id p. 23
20 Id p. 24
15
16

8
hearing, which is what your client wanted?21 Judge
Williams denied the renewed recusal motion.22
After a trial23 Judge Williams found Brian Clark
guilty of contempt of court and sentenced him to 90
days in jail, with all but 10 days suspended, based on
conditions that included compliance with Judge
Clark’s aforesaid order, as modified, placing the
aforesaid conditions on Brian Clark’s access to the
clerk’s office.24
The Court of Appeals of Virginia25 and the
Virginia Supreme Court26 denied appeal, from which
Brian Clark files this petition for certiorari.
Throughout this case, Brian Clark contended
that the refusal of Judge Williams to recuse himself
violated Brian Clark’s federal due process rights, a
positon stated explicitly in the trial court, on appeal
to the Court of Appeals of Virginia (which denied
appeal) and to the Virginia Supreme Court (which
refused an appeal and denied a petition to rehear).27
This petition asks this Court to grant a writ of
certiorari and reverse Brian Clark’s conviction with

Brian Clark’s renewed March 2018 motion, submitted after
he was served with the contempt charge on the day of trial and
before the trial commenced, pp. 5-6, 8-9 Trans. March 20, 2019
Trial in trial court.
22 Id. p. 9
23 Trans. March 20, 2018 trial.
24 Appendix D.
25 Appendix B, Appendix C
26 Appendix A, Appendix E
27 This is set forth in detail in Section III of the argument that
follows.
21

9
remand of this case for appointment of a new judge
with a new trial.
Brian Clark’s petition for a writ of prohibition
was denied by the Virginia Supreme Court on
grounds the issue on prohibition was not whether an
order should have been issued, but whether the trial
court had jurisdiction to do so28 After the trial of
this case, on August 16, 2018, that part of Brian
Clark’s federal lawsuit seeking a declaratory
judgment finding Judge Clark’s order unenforceable
by the sheriff was dismissed on a motion for
summary judgment on grounds that the RookerFeldman doctrine barred the U.S. District Court
from overruling the decision by the Virginia
Supreme Court in denying the petition for a writ of
prohibition. (Clark v. Coleman et al., Dkt. No. 89)
REASONS FOR GRANTING THE PETITION
I.

THE

PROSECUTION

OF

BRIAN

CLARK

WAS

MANIFESTLY INTENDED TO PUNISH HIM FOR BRINGING
AN ACTION IN A HIGHER COURT AND IN FEDERAL COURT
CHALLENGING

AN

ORDER

ENTERED

WITHOUT

ANY

NOTICE TO HIM OR OPPORTUNITY TO BE HEARD BY THE
TRIAL COURT ON THE PRETEXT THAT THE CONTEMPT
CASE WOULD PROVIDE HIM THE NOTICE AND HEARING
HE COMPLAINED TO A HIGHER COURT OF HAVING BEEN
DENIED.

While Brian Clark contends in this petition that
the prosecution in this case was to punish him for
joining a judge of the trial court as respondent in a
28

Rec. of Prob. Case, order by Virginia Supreme Court

10
case he filed in a higher court, Brian Clark does not
contend that such was done in any devious way.
What Judge Clark and Judge Williams did, which
Brian Clark contends was to punish him for going to
a higher court, was done completely on the public
record.
After being served with Brian Clark’s
petition for a writ of prohibition, Judge Clark wrote
the trial court’s chief judge, Judge Williams,
attaching emails more than a year old, and stated
that if Judge Williams thought well of it, he could
charge Brian Clark with contempt of court because
of those emails and “give him the due process he
demands from the Virginia Supreme Court.”
In stating that Brian Clark was demanding due
process from the Virginia Supreme Court, Judge
Clark referred to Brian Clark’s petition for a writ of
prohibition, which had set forth facts not in dispute
that Judge Clark had banned him from the clerk’s
office by means of an oral order with no prior notice
to Brian Clark and with no opportunity to be heard,
and despite the fact Brian Clark had a clean
criminal record with no evidence that he had
threatened violence. When Brian Clark’s lawyer
wrote Judge Clark to seek reversal of Judge Clark’s
order, Judge Clark confirmed such order, and,
although modifying it to allow Brian Clark entry into
the clerk’s office with his lawyer or on 24 hour
notice, Judge Clark did not allow Brian Clark him
the same right of entry to the clerk’s office permitted
to the general public.
In responding to letters from Brian Clark’s
lawyer’s request for reversal of his orders as to Brian
Clark’s entry into the clerk’s office, Judge Clark did

11
not reference the emails he later sent to Judge
Williams, so that, on the record, it does not appear
that Brian Clark’s counsel was put on notice that if
he filed a petition for a writ of certiorari in the
Virginia Supreme Court, he would thereby risk
prosecution of Brian Clark based on emails that
were not cited by Judge Clark as grounds for his
order denying Brian Clark the same rights for entry
into the clerk’s office granted to members of the
general public.
In reaction to Brian Clark’s petition for a writ of
prohibition, Judge Clark did not offer him a hearing
for consideration of the emails as “the due process he
demands” for a determination of whether he would
be allowed the same access to the clerk’s office as
members of the general public. Rather, after being
served as respondent in Brian Clark’s petition for a
writ of prohibition, Judge Clark raised the emails for
the first time in a letter to Judge Williams stating
that if Judge Williams thought well of it, he could
charge Brian Clark with contempt of court based on
the emails (more than a year old) and thereby give
Brian Clark the due process he demanded from the
Virginia Supreme Court. However, this contempt
case could not have given Brian Clark due process he
requested, because, as Judge Williams later
acknowledged, Brian Clark never asked to be
subjected with a charge carrying a jail sentence,
rather asked for due process on whether he would
have the same rights to entry of the clerk’s office as
available to the general public. Judge Williams’
contempt charge served on Brian Clark, initiated at
the suggestion of Judge Clark, was a classic case of
“look what you made me do.” This was reinforced by

12
Judge Williams’s statement during a hearing in
September 2017, in which Judge Williams
characterized Judge Clark’s letter to him as follows:
“Well, the matter raised was your client
didn’t have a change to have a hearing,
which is what your client wanted.”
II. BECAUSE OF THE COMBINATION OF (A) WHAT IS SET
FORTH IN (I) ABOVE; (B) PRIOR RECUSAL OF ALL OF THE
JUDGES OF THE TRIAL COURT IN ANOTHER CASE ON

JUDGE WILLIAMS’ PRIOR
JUDICIAL STATEMENT THAT BRIAN CLARK HELD
“PARANOID” VIEWS; AND (D) THE LONG PASSAGE OF
LESSER

GROUNDS;

(C)

TIME SINCE THE EMAILS AT ISSUE IN THIS CASE AND THE
FILING

OF

CHARGE, JUDGE WILLIAMS WAS
BRIAN CLARK’S FEDERAL DUE PROCESS

THE

REQUIRED BY

RIGHTS TO GRANT HIS RECUSAL MOTION

Leaving aside everything else in the record of
this case, on the grounds alone that Judge Williams
issued the contempt charge in this case to meet the
suggestion of Judge Clark seeking, in effect,
punishment of Brian Clark for going over Judge
Clark to Virginia’s highest court. Brian Clark’s due
process rights under the Fifth and Fourteenth
Amendments to the United Supreme Court required
Judge Williams to grant Brian Clark’s recusal
motion. However, there were additional grounds
requiring recusal to guarantee such due process
rights:
 Judge Williams had previously issued a
written opinion stating that Brian Clark held
“paranoid” views.

13
 Judge Williams, and all of the judges of
the trial court, had previously recused
themselves from the Brian Clark’s divorce case.
 Even if the contempt charge were not
construed as a form of punishment for Brian
Clark filing his petition for a writ of prohibition
in the Virginia Supreme Court, when Brian
Clark filed his recusal motion, and when it was
heard and first denied in September 2017, there
were pending in the Virginia Supreme Court and
in the U.S. District Court for the Western
District of Virginia two cases brought by Brian
Clark challenging Judge Clark’s orders granting
Brian Clark less access to the clerk’s office than
allowed to the general public. As set forth in
Brian Clark’s recusal motion, when he filed such
motion, it appeared that if he were acquitted in
the contempt case then pending, such could
support his case challenging Judge Clark’s order
as to conditions for his entry into the clerk’s
office.
Further, Judge Clark had made the
contempt case an issue in the case as to the
petition seeking a writ of prohibition then
pending in the Virginia Supreme Court. Because
Judge Clark, by counsel, had made the contempt
case an issue as to the outcome of a case in
which Judge Clark was a party, Judge Williams
should have, on that grounds alone, recused
himself, because he had acted on Judge Clark’s
suggestion to issue the contempt charge against
Brian Clark on the open proposal that such
would be relevant to Brian Clark’s petition to a
higher court.

14
 For the reasons set forth above, an
objective view of this case was that a average
judge in Judge Williams’ position would be likely
to have an unconstitutional “potential for bias.”
 The contempt charge in this case based
on a letter from Judge Williams dated July 25,
2017, which referenced email stated to have been
from Brian Clark, including an email dated
February 14, 2016 which, in part, referenced
local judges who had recused themselves (which
included all of the judges of the 21st Judicial
Circuit, of which Judge Williams was chief
judge) and stated
“… I therefore request copies of
each ones Oath of Office, and the surety
bond information and BSB license
numbers.
I WILL tie in their Motives with
BB&T and others involving the
theft
of hundreds of thousands of Dollars ….”
Because the contempt charge against Brian
Clark alleged he sent an email more than 17 months
before the charge was brought that included
language indicating that judges including Judge
Williams had been corrupt, the passage of time alone
required that Judge Williams grant Brian Clark’s
recusal motion.

15
Brian Clark, by counsel, submits the following
case law in support of the five contentions set forth
above.29
In a case involving due process rights in
30
contempt proceedings , Cooke v. United States, 267
U.S. 517 (1925) Chief Justice Taft of this Court
stated the following:
“The power of contempt which a judge
must have and exercise in protecting the due
and orderly administration of justice and in
maintaining the authority and dignity of the
court is most important and indispensable.
But its exercise is a delicate one and care is
needed to avoid arbitrary or oppressive
conclusions. The rule of caution is more
mandatory where the contact charged has
in it the element of personal criticism or
attack upon the judge. The judge must
banish the slightest personal impulse to
reprisal, but he should not bend backwards
and injure the authority of the court by too
great leniency. The substitution of another
judge would avoid either tendency but it is
not always possible. Of course, where acts of
contempt are palpably aggravated by a
The following argument tracks the argument on this issue in
Brian Clark’s petition for appeal to the Virginia Supreme
Court.
30 While contempt cases have been held to be sui generis and
not “criminal prosecutions” under the Sixth Amendment (see
United Mine Workers of America v. Bagwell, 512 U.S. 821
(1994)), a defendant in a contempt case is entitled to due
process of law. Fisher v. Pace, 336 U.S. 155 (1949); see also,
Pounders v. Watson, 521 U.S. 982 (1997)
29

16
personal attack upon the judge in order to
drive the judge out of the case for ulterior
reasons, the scheme should not be permitted
to succeed. But attempts of this kind are
rare. All of such cases, however, present
difficult questions for the judge. All we can
say upon the whole matter is that where
conditions do not make it impracticable, or
where the delay may not injure public or
private right, a judge called upon to act in a
case of contempt by personal attack upon
him, may, without flinching from his duty,
properly ask that one of his fellow judges
take his place. Cornish v. United States, 299
F. 283, 285; Toledo Newspaper Co. v. United
States, 237 F. 986, 988. The case before us is
one in which the issue between the judge
and the parties had come to involve marked
personal feeling that did not make for an
impartial and calm judicial consideration
and conclusion, as the statement of the
proceedings abundantly shows.”
In Mayberry v. Pennsylvania, 400 U.S. 455
(1971), a pro se defendant engaged in personal abuse
of the trial judge. This Court appeared to leave open
the option of the trial judge to act immediately and
summarily to quell contempt by citing and convicting
an offender, thus empowering the judge to keep the
trial going, but indicated that if the judge waited
until the conclusion of the trial he should defer to
another judge.
In Taylor v. Hayes, 418 U.S. 488 (1974), Justice
White’s opinion for this Court stated that because
“marked personal feelings were present on both

17
sides” and because “unseemly conduct [had] left
personal stings” another judge should have been
substituted for the trial judge for the purpose of
finally disposing of contempt charges in that case.
In Caperton v. A. T. Massey Coal Co., 556 U.S.
868, 869 (2009), this Court cited Mayberry, supra.
stating, in part, the following:
In reiterating that the rule that “a
defendant in criminal contempt proceedings
should be [tried] before a judge other than
the one reviled by the contemnor,” Mayberry
v. Pennsylvania ....., rests on the relationship
between the judge and
the
defendant
(citation), the Court noted that the objective
inquiry is not whether the judge is actually
biased, but whether the average judge in his
position is likely to be neutral or there is
an unconstitutional “potential for bias.”
(citation).
Brian Clark, by counsel, submits it is not
necessary for a defendant charged with contempt to
show -- in a motion seeking recusal -- that the judge
assigned the trial of the contempt case is prejudiced
against him. It should be sufficient to justify recusal
if matters related to or surrounding the contempt
case indicate an objective inquiry would demonstrate
that the average judge in the position of the judge
assigned the case would have an unconstitutional
“potential for bias.” (See Caperton, supra.) That was
the argument made on Clark’s behalf before Judge
Williams, before the Court of Appeals of Virginia,
and before the Virginia Supreme Court.

18
In this case, any objective observer would be
likely to conclude that any acquittal of the contempt
charges pending against Brian Clark in this case
when he first filed a recusal motion in September
2017, could be construed in favor of his then pending
petition in the Virginia Supreme Court seeking a
writ of prohibition (in which he stated he was solely
invoking his rights under state law)31 and in a
complaint he had filed (solely invoking rights under
federal law) in the case of Clark v. Coleman, et al;
U.S. District Court, Western District of Virginia;
Case No. 4: 17-cv-00045-MFU-RSB, in which Brian
Clark, inter alia, challenged the 24 hour advance
notice requirement imposed by Judge Clark for him
to visit the clerk's office unattended by his counsel
on federal grounds.32.
The foregoing, combined with (a) Judge
Williams’ previous holding that Brian Clark held
“paranoid” views’ (b) Judge Williams’ prior recusal
from Brian Clark’s divorce case; (c) the record in this
case indicating that the contempt case was filed
The Virginia Supreme Court denied Brian Clark’s petition for
a writ of prohibition on grounds the issue was not whether
Judge Clark had erred or not erred, but whether he acted
within his jurisdiction. By necessary inference, the Virginia
Supreme Court indicated Judge Clark acted within his
jurisdiction as to restriction on Brian Clark’s entry into the
clerk’s office.
32 The U.S. District Court granted summary judgment as to
that part of Brian Clark’s federal claim. Brian Clark remains
within the time allowed to appeal that decision to the Fourth
Circuit Court of Appeals, because the final order in that case
(reversing a jury verdict against Brian Clark and granting him
nominal damages and attorney’s fees because of a traffic stop
by a deputy sheriff of Patrick County, Virginia) was entered on
March 24, 2020 (Dkt No. 156)
31

19
against Brian Clark as punishment for his filing a
petition for a writ of prohibition in the Virginia
Supreme Court joining Judge Clark as respondent;
and (d) Judge Williams’ statement as to such subject
that “Well, the matter raised was your client didn’t
have a change to have a hearing, which is what your
client wanted” --taken together, established that an
average judge in Judge Williams’ position would be
likely to have an unconstitutional “potential for
bias.”
Brian Clark submits that this motion should be
held to meet the test recited above in due process
case decisions by this Court to justify recusal as
sought in this motion on federal due process grounds
required to vindicate Brian Clark’s due process
rights under the Fifth and Fourteenth Amendment
to the U.S. Constitution. This is particularly so
because of the statement by Judge Williams during
the oral argument on September 15, 2017 that
“…the matter raised was your client didn’t have a
chance to have a hearing, which is what your client
wanted.”
III. BRIAN

CLARK

PROPERLY

COMPLIED

WITH

APPLICABLE RULES TO PRESERVE HIS FEDERAL DUE
PROCESS CONSTITUTIONAL RIGHTS AT EVERY STAGE OF
THE PROCEEDINGS OF THIS CASE IN VIRGINIA COURTS

Brian Clark’s recusal motion filed on September
12, 2017, specifically raised his federal due process
rights as grounds to support his recusal motion and
cited the Cooke, supra., Mayberry, supra., Taylor,
supra. and Caperton cases.

20
Brian Clark’s renewed recusal motion filed on
March 20, 2020 after he was served repeated the
grounds set forth in his September 2017 recusal
motion and added as grounds for recusal Judge
Williams statement during the hearing on
September 15, 2017 that “Well, the matter raised
was your client didn’t have a change to have a
hearing, which is what your client wanted.”
In his petition for appeal to the Court of Appeals
of Virginia, Brian Clark repeated the federal due
process arguments above 33
One of the judges of the Court of Appeals of
Virginia, in denying Brian Clark’s petition for
appeal, on February 25, 2019 held, inter alia, that
the petition for appeal had not complied with Rule
5A:12(c)(5) of the Rules of the Virginia Supreme
Court as to other issues raised by Brian Clark on
appeal, because that court held that, as to those
other assignments of error, Brian Clark had not
submitted sufficient principles of law and authorities
on the record to develop Brian Clark’s grounds for
appeal as to those other issues.34 However, that
February 19, 2018 decision (issued per curium) did
not make any finding that Brian Clark had not
sufficiently set forth principles of law and
authorities on the record as to that part of his appeal
contending that Judge Williams erred in denying
Brian Clark’s motion that he recuse himself35 (which
is the issue in this petition for certiorari).
Petition for appeal to the Court of Appeals of Virginia, pp. 56, 21-24
34 Appendix C
35 Appendix C, pp. A6-7
33

21
The one judge per curium decision by the Court
of Appeals of Virginia held against Brian Clark’s
recusal motion citing Virginia state law, holding
that, in support of a motion for recusal, Brian Clark
had the burden of proving actual bias by Judge
Williams. (February 25, 2019 per curium opinion, pp.
3-4) Such per curium opinion made no reference to
Brian Clark’s grounds for recusal citing his federal
due process rights under the decisions of this Court
(recited herein above and in his motions in the trial
court and in his petition for appeal to the Court of
Appeals of Virginia) that a judge should recuse
himself if an objective observer would find that an
average judge in his position would have an
unconstitutional “potential for bias.” Rather, that
per curium opinion held that it was sufficient to
deny the motion for recusal that Judge Williams, in
ruling on such motion, stated that he would be
unbiased. (Id. p. 4).
Brian Clark filed a petition for rehearing that
stated, in part, at p, 2, that the per curium decision
(referenced at the “Denial Order” by the one judge
acting for the Court of Appeals)36 was in error
because
“It held against Clark’s contention of error
by the Circuit Court of Patrick County,
Virginia (“the trial court”) refusing Clark’s
motion for judge recusal because (a) the
Denial Order order appeared based solely on
state law, yet Clark also sought judge
recusal on federal due process grounds,
36

Appendix C

22
mandating recusal for a “potential for bias”
so that the trial court had no discretion to
deny recusal….”
After oral argument, three judges of the Virginia
Court of Appeals, on behalf of that court, on July 2,
2019, issued an order denying Brian Clark’s petition
for appeal “for the reasons previously stated in the
order entered by this Court on February 25, 2019,”
(Appendix B) thereby reiterating the grounds solely
on state law for upholding Judge Williams’ denial of
Brian Clark’s motion that he recuse himself.
On August 2, 2019, Brian Clark filed a petition
for appeal in the Virginia Supreme Court
contending, in part, that Judge Williams’ refusal to
recuse himself was unconstitutional under federal
law.37 That petition for appeal contained the
arguments set forth herein above regarding Brian
Clark’s contention that the refusal of Judge Williams
to recuse himself deprived Brian Clark of his federal
due process rights.
On January 28, 2020, the Virginia Supreme
Court issued an order refusing Brian Clark’s appeal
stating that “the Court is of the opinion there is no
reversible error in the judged complained of.” 38
On February 11, 2020, Clark filed a petition to
rehear in the Virginia Supreme Court which cited
the decisions by this Court in Cooke, supra.,
Mayberry, supra., Taylor, supra., and Caperton,
supra. and contended that the refusal of Judge
37
38

Petition for Appeal to Virginia Supreme Court, pp 7-8 26-30)
Appendix A

23
Williams to recuse himself breached Brian Clark’s
federal due process rights.39
On March 20, 2020, the Virginia Supreme Court
entered an order stating, “On consideration of the
petition of the appellant to set aside the judgment
rendered herein on January 28, 2020 and grant a
rehearing thereof, the prayer of the said petition is
denied.” 40
As set forth above, at every state of this case in
the applicable state courts, Brian Clark contended
his federal due process rights required that Judge
Williams recuse himself on grounds including that
an objective obsever would conclude that an average
judge in Judge Williams positon would have an
unconstitutional “potential for bias.” The contention
was overruled by Judge Williams, the Court of
Appeals of Virginia, and the Virginia Supreme
Court, but none of those courts – except for the
contention that Judge Williams was not, in fact,
biased, addressed Brian Clark’s contention that an
objective view would be that an average judge in
Judge
Williams’
position
would
have
an
unconstitutional “potential for bias.”
For the reasons set forth herein above, Brian
Clark submits he has preserved his claim of error for
consideration by this Court on petition for certiorari.

39
40

Petition to Rehear to Virginia Supreme Court, pp. 7-9
Appendix D

24
CONCLUSION
For the foregoing reasons, certiorari should be
granted in this case.
Respectfully submitted.
HENRY W. MCLAUGHLIN (VSB NO. 07105)
LAW OFFICE OF HENRY MCLAUGHLIN, P.C.
707 East Main Street, Suite 1050
Richmond, Virginia 23219
(804) 205-9020; fax (804) 205-9029
henry@mclaughlinvalaw.com
Counsel for Petitioner
April 15, 2020

No. _______

In The

Supreme Court of the United States
BRIAN HAMPTON CLARK,
Petitioner,

v.
COMMONWEALTH OF VIRGINIA,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Virginia
APPENDIX

HENRY W. MCLAUGHLIN (VSB NO. 07105)
THE LAW OFFICE OF HENRY MCLAUGHLIN, P.C.
707 EAST MAIN STREET, SUITE 1050
RICHMOND, VIRGINIA 23219
Tel. (804) 205-9020
Facsimile (804) 205-9029
Email: henry@mclaughlinvalaw.com
Counsel of Record for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

APPENDIX:
APPENDIX A: January 28, 2020 Order of the
Virginia Supreme Court Refusing Appeal ............. A1
APPENDIX B: July 2, 2019 Order of the Court of
Appeals of Virginia Denying Appeal ...................... A2
APPENDIX C: February 25, 2019 Order of Court of
Appeals of Virginia Denying Appeal ....................... A3
APPENDIX D: March 20, 2018 Conviction Order of
Circuit Court of Patrick County, Virginia............. A10
APPENDIX E: March 21, 2020 Order of Virginia
Supreme Court Denying Petition to Rehear ........ A12
APPENDIX F: U.S. CONST. amend. V and U.S.
CONST. amend. XIX ................................................ A13

A1
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond on
Tuesday the 28th day of January, 2020.
Record No. 191006
Court of Appeals No. 0637-18-3
Brian Hampton Clark, Appellant,
against
Commonwealth of Virginia, Appellee.
From the Court of Appeals of Virginia
Upon review of the record in this case and
consideration of the argument submitted in support
of and in opposition to the granting of an appeal, the
Court refuses the petition for appeal.
Justice Chafin took no part in the resolution of
the petition.
A Copy,
Teste: Douglas B. Robelen, Clerk
By: /s/ Deputy Clerk

A2
VIRGINIA:
In the Court of Appeals of Virginia on Tuesday the
2nd day of July, 2019.
Record No. 0637-18-3
Circuit Court No. CR17000709-00
Brian Hampton Clark, Appellant,
against
Commonwealth of Virginia, Appellee.
From the Circuit Court of Patrick County
Before Judges Chafin, Russell and Senior
Judge Clements
For the reasons previously stated in the order
entered by this Court on February 25, 2019, the
petition for appeal in this case hereby is denied.
This order shall be certified to the trial court.
A Copy,
Teste: Cynthia L. McCoy, Clerk
By: /s/ Deputy Clerk

A3
VIRGINIA:
In the Court of Appeals of Virginia on Monday the
25th of day of February, 2019.
Record No. 0637-18-3
Circuit Court No. CR17000709-00
Brian Hampton Clark, Appellant,
against
Commonwealth of Virginia, Appellee.
From the Circuit Court of Patrick County
Per Curiam
This petition for appeal has been reviewed by a
judge of this Court, to whom it was referred
pursuant to Code§ 17.1-407(C), and is denied for the
following reasons:
Appellant was convicted of contempt of court in
violation of Code § 18.2-456. He includes eight
assignments of error in his petition for appeal.
I., IV., V., VI., and VIII. Appellant contends that
the trial court erred by denying his motions “to
dismiss the charges against him on public policy
grounds,” denying his motions “seeking dismissal of
the charges in this case on grounds of double
jeopardy,” denying his motion “seeking recusal of the
Commonwealth’s Attorney,” “excluding from
evidence expert testimony by John Bryan Kasarda,”
and finding the evidence sufficient to convict him of
contempt.
Appellant did not comply with Rule 5A:12(c)(5);
the petition for appeal does not contain sufficient

A4
principles of law and authorities or the record to
fully develop appellant’s arguments pertaining to
these assignments of error. “If the parties believed
that the circuit court erred, it was their duty to
present that error to us with legal authority to
support their contention.” Fadness v. Fadness, 52
Va. App. 833, 851 (2008). This Court “will not search
the record for errors in order to interpret the
appellant’s contention and correct deficiencies in a
[petition for appeal].” Yap v. Commonwealth, 49 Va.
App. 622, 629 (2007) (quoting Buchanan v.
Buchanan, 14 Va. App. 53, 56 (1992)). “Nor is it this
Court’s ‘function to comb through the record ... in
order to ferret-out for ourselves the validity of
[appellant’s] claims.’” Burke v. Catawba Hosp.,
59 Va. App. 828, 838 (2012) (quoting Fitzgerald v.
Bass, 6 Va. App. 38, 56 n.7 (1988) (en banc)).
“A court of review is entitled to have the issues
clearly defined and to be cited pertinent authority.
The appellate court is not a depository in which the
appellant may dump the burden of argument and
research.” Mitchell v. Commonwealth, 60 Va. App.
349, 352 (2012) (quoting Jones v. Commonwealth, 51
Va. App. 730, 734-35 (2008)). “An appellant who
asserts that a trial court’s ruling was erroneous has
an obligation to state clearly to the appellate court
the grounds for that assertion. A cross-reference to
arguments made at trial is insufficient.” Jenkins v.
Commonwealth, 244 Va. 445, 461 (1992) (quoting
Spencer v. Commonwealth, 240 Va. 78, 99 (1990)).
We find that these defects are significant. See Jay v.
Commonwealth, 275 Va. 5 LO, 520 (2008) (“the
Court of Appeals should ... consider whether any
failure to strictly adhere to the requirements of [the
Rules of Court] is insignificant ...”); cf. Rule 5A:1A(a)

A5
(authorizing dismissal of appeal or “such other
penalty” deemed appropriate). Because appellant
failed to develop these arguments, we need not
consider these assignments of error. Atkins v.
Commonwealth, 57 Va. App. 2, 20 (2010).
II. Appellant contends that the trial court erred
by denying his motions “to dismiss the charges
against him as barred by a one-year statute of
limitation in” Code§ 19.2-8.
“Judicial interpretation of a statute is a question
of law that this Court reviews de novo.” Dunne v.
Commonwealth, 66 Va. App. 24,29 (2016). “We view
the facts in the light most favorable to the
Commonwealth.” Sandidge v. Commonwealth, 67
Va. App. 150, 156 (2016).
After finding that appellant “over the course of
many months, harassed, intimidated, threatened
and harangued the staff’’ of the Patrick County
Circuit Court Clerk’s Office, Judge Martin F. Clark,
Jr. prohibited appellant from entering the
courthouse without counsel. Judge Clark later
allowed appellant to enter the courthouse alone,
provided that he gave twenty-four hours’ notice
before his arrival. Thereafter, appellant filed a writ
of prohibition with the Supreme Court of Virginia
“demanding a hearing on these matters.1” Judge
Clark contacted Chief Judge David V. Williams and
provided Judge Williams with e-mails the court had
received from appellant. On July 25, 2017, after
having reviewed the materials, the circuit court
issued a rule to show cause why appellant should not
be fined or imprisoned for contempt of court. The
rule referenced three e-mails, dated February 14,
1

The Supreme Court refused the writ on December 4, 2017.

A6
2016, February 22, 2016, and February 25, 2016-the
dates of the alleged offenses.
Appellant argues that the one-year statute of
limitation in Code § 19.2-8 barred a prosecution for
ton tempt because the e-mails were sent more than a
year before the trial court issued the show cause
order. Code § 19.2-8 provides, in pertinent part: “A
prosecution for a misdemeanor, or any pecuniary
fine, forfeiture, penalty or amercement, shall be
commenced within one year next after there was
cause therefor. . . .”
“As contempt proceedings are not ‘criminal
prosecutions,’ statutes of limitation for crimes do not
apply to bar them.” Porter v. Commonwealth, 65 Va.
App. 467, 477 (2015). “[W]e recognize that ‘[w]hile
contempt may be an offense against the law and
subject to appropriate punishment, certain it is that
since the foundation of our government proceedings
to punish such offenses have been regarded as sui
generis and not “criminal prosecutions” within the
Sixth Amendment or common understanding.’” Id.
(quoting Myers v. United States, 264 U.S. 95, 104-05
(1924)). Furthermore, “even if statutes of limitation
for crimes applied to contempt proceedings,” a
violation of Code§ 18.2-456 “is not classified as a
misdemeanor and thus, Code § 19.2-8 does not
apply.” Id. Accordingly, the trial court did not err in
ruling that the contempt charges against appellant
pursuant to Code § 18.2-456 was not time-barred.
III. Appellant contends that the trial court erred
by denying his “motion for recusal.” He asserts that
the trial judge should have recused himself because
of “potential for bias” considering that appellant had
filed the writ of prohibition in the Supreme Court
and had filed a complaint in federal court

A7
challenging the trial court’s restrictions on
appellant’s access to the clerk’s office.
According to Canon 3(A) of the Canons of
Judicial Conduct, “[a] judge shall disqualify himself
or herself in a proceeding in which the judge’s
impartiality might reasonably be questioned ....” Our
Supreme Court has held that “in making the recusal
decision, the judge must be guided not only by the
true state of his impartiality, but also by the public
perception of his fairness, in order that public
confidence in the integrity of the judiciary may be
maintained.” Prieto v. Commonwealth, 283 Va. 149,
163 (2012) (quoting Wilson v. Commonwealth, 272
Va. 19, 28 (2006)). “Exactly when a judge’s
impartiality might reasonably be called into question
is a determination to be made by that judge in the
exercise of his or her sound discretion.” Davis v.
Commonwealth, 21 Va. App. 587, 591 (1996). The
party moving for recusal “has the burden of. proving
the judge’s bias or prejudice.” Commonwealth v.
Jackson, 267 Va. 226, 229 (2004). And, “[i]n the
absence of proof of actual bias, recusal is properly
within the discretion of the trial judge.” Id. “We
employ an abuse-of-discretion standard to review
recusal decisions.” Prieto, 283 Va. at 163.
Here, the trial judge specifically found that he
could “be very fair and impartial” with appellant and
“give him a fair and impartial trial on” the “only
real” issues before the court, namely: “were these
emails sent by [appellant] and if so, were they
contemptuous.” Appellant has not demonstrated any
actual bias or prejudice. Nothing in the record
suggests that the judge abused his discretion by not
recusing himself.

A8
VII. Appellant argues that the trial court “erred
in admitting into evidence over defense objection an
affidavit in response to a” subpoena duces tecum.
“[T]he determination of the admissibility of
relevant evidence is within the sound discretion of
the trial court subject to the test of abuse of that
discretion.” Atkins v. Commonwealth, 68 Va. App. 1,
7 (2017) (quoting Adjei v. Commonwealth, 63 Va.
App. 727, 737 (2014)). The Commonwealth
introduced a ‘document prepared by JiffySnap IT
Solution, LLC showing that appellant’s contact
information was associated with the e-mail account
from which the contemptuous e-mails were sent. The
record also included an affidavit signed by Clifford
C. Seals, Jr., the authorized custodian of JiffySnap
records. The affidavit notes that the records “were
kept in the course of regularly conducted business
activity and were prepared, or received, as a regular
practice and custom.” Appellant argues that Code §
8.01-390.3 and Virginia Rule of Evidence 2:902 “did
not provide grounds for admission of an affidavit
obtained by subpoena duc[e]s tecum because the
affidavit did not state that the information was from
business records.”
In any proceeding where a business
record is material and otherwise admissible,
authentication of the record and the
foundation required by subdivision (6) of
Rule 2:803 of the Rules of Supreme Court of
Virginia may be laid by (i) witness
testimony, (ii) a certification of the
authenticity of and foundation for the record
made by the custodian of such record or

A9
other qualified witness either by affidavit or
by declaration pursuant to § 8.01-4.3, or
(iii) a combination of witness testimony and
a certification.
Code§ 8.01-390.3. Rule 2:902 addresses the selfauthentication of business records. Here, the
affidavit expressly declared that the JiffySnap
record was prepared in the ordinary course of
business and the affidavit certified the authenticity
of the document, as permitted by Code§ 8.01-390.3.
Accordingly, we find no abuse of discretion with the
trial court’s admission of the evidence.
This order is final for purposes of appeal unless,
within fourteen days from the date of this order,
there are further proceedings pursuant to Code§
17.1-407(D) and Rule 5A:15(a) or 5A:15A(a), as
appropriate. If appellant files a demand for
consideration by a three-judge panel, pursuant to
those rules the demand shall include a statement
identifying how this order is in error.
The Commonwealth shall recover of the
appellant the costs in the trial court.
This Court’s records reflect that Henry W.
McLaughlin, Esquire, is counsel of record for
appellant in this matter.
A Copy,
Teste: Cynthia L. McCoy, Clerk
By: /s/ Deputy Clerk

A10
VIRGINIA: IN THE CIRCUIT COURT OF THE
COUNTY OF PATRICK
On the 20th day of March, 2018
PRESENT: The Honorable David V. Williams,
Judge.
COMMONWEALTH
Vs:
BRIAN HAMPTON CLARK

#17000709-00

SS#: xxx-xx-xxxx
DATE OF BIRTH: 07-28-1970
HEARING DATE: 03-20-2018
HEARING TYPE: Trial by Court
ATTORNEY FOR THE COMMONWEALTH:
Stephanie Vipperman
ATTORNEY FOR THE DEFENDANT: Henry
McLaughlin (retained)
ORIGINAL CHARGE DESCRIPTION: Contempt of
Court (M)
STATUTE VIOLATION CHARGED: 18.2-456,
19.2-11
OFFENSE DESCRIPTION IF CONVICTED:
Contempt of Court (M)
ALLEGED OFFENSE DATE: 02-14-2016, 02-222016,02-25-2016
COMMENCING STATUS OF DEFENDANT:
Released on Bail
This day came the Attorney for the
Commonwealth and Brian Hampton Clark in person,
who stands charged with contempt of court, and
came also Henry McLaughlin, his attorney.

A11
Thereupon the defendant was arraigned and
after being advised by his counsel pleaded not guilty,
which plea was tendered by the defendant in person.
The Court determined that the defendant knowingly,
voluntarily and intelligently waived trial by jury and
proceeded to hear and determine the case without a
jury, and having heard evidence and argument of
counsel, finds the defendant guilty of contempt of
court, as charged in the capias. The defendant shall
be confined in a local correctional facility for ninety
(90) days, the execution of all except ten (10) days of
which sentence is suspended upon defendant’s good
behavior for two (2) years and defendant shall pay a
fine of $250.00 and the costs of this hearing. It is
further ordered that the defendant shall comply with
the courthouse safety plan as described in letter
dated October 25, 2016, and also in letter dated May
5, 2017 from Judge Martin F. Clark, Jr. to Henry
McLaughlin and filed as a part of the record herein.
Upon the verbal noting of an appeal in open
court, the Court set an appeal bond in the amount of
$2,500.00.
The Court certifies that at all times during the
trial of this case the defendant was personally
present with his attorney.
And the defendant was remanded to jail.
The caption of the order is made a part of the
order of the Court.
ENTER: 5/9/2018
/s/ Judge

A12
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond on
Tuesday the 28th day of January, 2020.
Record No. 191006
Court of Appeals No. 0637-18-3
Brian Hampton Clark, Appellant,
against
Commonwealth of Virginia, Appellee.
Upon a Petition for Rehearing
On consideration of the petition of the appellant
to set aside the judgment rendered herein on
January 28, 2020 and grant a rehearing thereof, the
prayer of the said petition is denied.
Justice Chafin took no part in the resolution of
the petition.
A Copy,
Teste: Douglas B. Robelen, Clerk
By: /s/ Deputy Clerk

A13
U.S. Constitution Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a grand jury, except in cases arising
in the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall
private property be taken for public use, without just
compensation.
U.S. Constitution Amendment XIV, Section 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

